         4
Carson
 July 3 1,2006

 Ms. Carol Bates
 Assistant Inspector General
 Office of Inspector General
 Corporation for National & Community Service
 1201 New York Ave., N.W., Suite 830
 Washington DC 20525


 Dear Ms. Bates:

 This letter is to inform you that we have completed the attached Study of Internet Use and
 Management Controls on behalf of the Office of Inspector General (OIG) of the Corporation for
 National and Community Service (CNCS).


 Sincerely,




 Diane C. Reilly
 Vice President


 Enclosures:
    Study of Internet Use and Management Controls




                            RICHARD S. CARSON & ASSOCIATES,
                                                          INC.
                                    www.carsoninc.c.om
    4720 Montgomery Lane Suite 800 Bethesda, MD 20814-3444 301.656.4565 Fax: 301.656.4806
